<html>
<title> - STRUCTURING NATIONAL SECURITY AND HOMELAND SECURITY AT THE WHITE HOUSE</title>
<body><pre>[Senate Hearing 111-654]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-654
 
 STRUCTURING NATIONAL SECURITY AND HOMELAND SECURITY AT THE WHITE HOUSE 

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                                 of the

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 12, 2009

                               __________

       Available via http://www.gpoaccess.gov/congress/index.html

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

49-490 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 




























        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           JOHN McCAIN, Arizona
MARK L. PRYOR, Arkansas              GEORGE V. VOINOVICH, Ohio
MARY L. LANDRIEU, Louisiana          JOHN ENSIGN, Nevada
CLAIRE McCASKILL, Missouri           LINDSEY GRAHAM, South Carolina
JON TESTER, Montana
ROLAND W. BURRIS, Illinois
MICHAEL F. BENNET, Colorado

                  Michael L. Alexander, Staff Director
                    Beth M. Grossman, Senior Counsel
              Eric P. Andersen, Professional Staff Member
            Christian J. Beckner, Professional Staff Member
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                Andrew E. Weis, Minority General Counsel
          Adam J. Killian, Minority Professional Staff Member
                  Trina Driessnack Tyrer, Chief Clerk
         Patricia R. Hogan, Publications Clerk and GPO Detailee
                    Laura W. Kilbride, Hearing Clerk



























                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Lieberman............................................     1
    Senator Collins..............................................     3
    Senator Pryor................................................    19

                               WITNESSES
                      Thursday, February 12, 2009

Hon. Thomas J. Ridge, Former Secretary of Homeland Security......     5
Frances Fragos Townsend, Former Assistant to President George W. 
  Bush for Homeland Security and Counterterrorism................     8
Christine E. Wormuth, Senior Fellow, International Security 
  Program, Center for Strategic and International Studies........    10
Hon. James R. Locher III, Executive Director, Project on National 
  Security Reform................................................    14

                     Alphabetical List of Witnesses

Locher, Hon. James R. III:
    Testimony....................................................    14
    Prepared statement...........................................    41
Ridge, Hon. Thomas J.:
    Testimony....................................................     5
    Prepared statement...........................................    27
Townsend, Frances Fragos:
    Testimony....................................................     8
    Prepared statement...........................................    31
Wormuth, Christine E.:
    Testimony....................................................    10
    Prepared statement...........................................    33

                                APPENDIX

Responses to post-hearing questions for the Record from:
    Mr. Ridge....................................................    50
    Ms. Townsend.................................................    54
    Ms. Wormuth..................................................    56
    Mr. Locher...................................................    58


 STRUCTURING NATIONAL SECURITY AND HOMELAND SECURITY AT THE WHITE HOUSE

                              ----------                              


                      THURSDAY, FEBRUARY 12, 2009

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:08 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman, Carper, Pryor, Burris, 
Collins, McCain, and Graham.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. Good morning and welcome to this 
hearing. Thanks to everybody for being here, particularly to 
our witnesses.
    In the wake of the terrorist attacks against the United 
States on September 11, 2001, Congress passed the Homeland 
Security Act of 2002, which not only created the Department of 
Homeland Security (DHS), but also formally established a 
Homeland Security Council (HSC), within the Executive Office of 
the President of the United States. Before being codified in 
law, the HSC operated under an Executive Order which President 
Bush issued a month after September 11, 2001.
    The Homeland Security Council was created to advise the 
President of the United States on homeland security matters. 
Like the National Security Council (NSC), the Homeland Security 
Council's statutory direction is general, ``more effectively 
coordinating the policies and functions of the U.S. Government 
relating to homeland security.'' Its central role is to also 
advise the President of the United States on matters related 
broadly to homeland security. Its required membership includes 
only the President, Vice President, Secretary of the Department 
of Homeland Security, Attorney General, and Secretary of 
Defense. Although the position is not in statute, it has been 
led since President Bush's original Executive Order by the 
Homeland Security Advisor.
    The Homeland Security Council also acts as the originator 
of Homeland Security Presidential Directives, which in the 
lingo of this field are called HSPDs. They promulgate homeland 
security policy across the government and are quite 
significant. Like the National Security Council, policy on 
specific issues is typically developed by coordinating 
committees consisting of subject matter experts from relevant 
agencies and normally are negotiated up through to the Deputy's 
Committee and finally the Principal's Committee before being 
approved by the President.
    In recent years, a number of analysts and a number of 
commission reports have questioned the wisdom of having a 
separate Homeland Security Council and a National Security 
Council, arguing that they should be merged. The basis of the 
argument, and I am going to state it too simplistically, is 
that homeland security is really just one element of national 
security, so it should be the purview of the National Security 
Council. Proponents of this point of view say that in an era 
when threats are transnational and borderless, it does not make 
sense for the White House to split its coordinating 
organization, and have separate councils for domestic and 
international security issues.
    Others, argue that our homeland security challenges are 
broad, that is they are not just counterterrorism but involve, 
for instance, national disasters, and also that the concerns of 
homeland security may well be lost or at least inadequately 
focused on if the Homeland Security Council merges with the 
National Security Council.
    Last month, in early January, President Obama appointed 
John Brennan to serve as both a Deputy National Security 
Advisor for Counterterrorism and as Homeland Security Advisor, 
bringing those functions together. This Committee has worked 
with John Brennan over the years in his time of service to the 
government. I personally have the highest respect for him and I 
welcome his appointment to work in the White House on our 
behalf.
    More recently, President Obama has asked John Brennan over 
the next 50 days to consider this question of whether the 
Homeland Security Council should be merged with the National 
Security Council. I have spoken with Mr. Brennan and told him 
that I am at this point of open mind on this question. Today's 
hearing really is to draw from the advice of experienced people 
who have thought about this to help the Committee be in a 
position to answer questions and interact with Mr. Brennan, and 
ultimately with President Obama, on the question of whether 
these two councils should be merged.
    There is a certain extent to which the President of the 
United States can have broad latitude by Executive Order or 
informally within the White House, but as I said at the outset 
of my statement, the unique, separate Homeland Security Council 
is a matter of statute now and it would be our intention to 
make some decision related to statute and hopefully to work 
together with the Administration in doing that.
    Every President since President Truman, who was President 
when the previous most significant reorganization and reform of 
our national security apparatus occurred--that is, prior to the 
post-September 11, 2001, period--has adapted the structure of 
the National Security Council to best serve the needs of the 
country and the needs of the President and the Presidential 
leadership style, in light of the challenges then facing the 
Nation. President Obama, of course, will want to do the same 
with both the National Security Council and the Homeland 
Security Council.
    But on this Committee, I would say there is a bottom line 
to these discussions, that whatever structure emerges, we have 
to believe that it will protect our homeland security, that it 
will provide the best coordination and information to the 
President of the United States on matters related to homeland 
security with the aim of providing the best security possible 
to the American people. Where legislation may be needed to 
either effect some changes or alter in some way the existing 
statute. I look forward to working with Members of this 
Committee and with the Administration to make sure that we get 
this right, because though it is in some senses a relatively 
dull matter of governmental organization, the consequences of 
it are very significant for our homeland security.
    Senator Collins.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you, Mr. Chairman.
    The decision on whether or not the Homeland Security 
Council and the National Security Council should be merged 
should not be taken lightly. While some dismiss this question 
as being too inside-the-beltway, the fact is that a decision to 
merge these two councils could have serious unintended 
consequences.
    In my judgment, merger advocates need to answer a number of 
difficult questions. First, are there any examples of how 
having separate entities has actually impeded or undermined 
national security? To the best of my knowledge, the answer to 
that question is no. There are none. To the contrary, the 
Nation has achieved considerable success in the one area in 
which the Homeland Security Council and the NSC share joint 
responsibility, and that is counterterrorism policy. Multiple 
terrorist attacks have been thwarted, including a 2002 plot to 
hijack an airplane and fly it into the tallest skyscraper in 
Los Angeles, a 2003 plot to hijack and crash planes into 
targets on the East Coast, and a 2006 plot to blow up multiple 
jets traveling from London.
    Another important question: Will the NSC with its 
traditional focus on international diplomatic and military 
issues, be able to devote enough time and attention to the 
domestic aspects of homeland security? I am very concerned that 
vitally important domestic security issues could become less 
visible within the White House were a merger to take place. 
These issues include emergency preparedness and response, 
critical infrastructure protection, and disaster recovery.
    The breadth of issues with which the National Security 
Advisor must contend on a daily basis is daunting: Managing the 
conduct of two wars, attempting to contain terrorism and 
proliferation activities, deciding the future of detainees at 
Guantanamo Bay, and that is just a sampling. Is it really 
feasible or practical to add an entirely new and massive 
portfolio of domestic issues to that weighty agenda?
    Think of the issues that the Homeland Security Advisors 
have had to contend with. They range from responsible for the 
levees' integrity in New Orleans, flooding in Maine, an ice 
storm in Kentucky, a wildfire in California. What should be the 
coordinated response? Which agencies should do what? I am 
concerned that adding those responsibilities would divert the 
NSC's primary focus from the Nation's military and diplomatic 
missions.
    The fact is, no matter how qualified, having one of the 
NSC's many deputies as the senior-most White House official in 
charge of homeland security will likely not be sufficient to 
ensure enough of a focus on homeland security issues. Disaster 
declarations, catastrophic planning, grant funding, and State 
and local information sharing must receive high-level support 
and attention within the White House.
    In a city where rank matters, I also question whether a 
deputy will have sufficient stature to compel the most senior 
officials, particularly members of the President's Cabinet, to 
take action on a pressing homeland security issue. Given those 
realities, who will referee the inevitable turf battles and 
rivalries between the Department of Homeland Security and other 
Federal departments and agencies? Because DHS is still a 
relatively new department, it is particularly vulnerable to the 
machinations of other agencies seeking to enhance their 
homeland security footprint. We have seen that, for example, 
with the Department of Justice, which has sought to minimize 
the Department of Homeland Security's role in terrorist bombing 
prevention, despite a presidential directive to the contrary, 
and that dispute has delayed the release of a national bombing 
prevention strategy plan for more than a year.
    Almost 6 years since its inception, DHS is still enmeshed 
in jurisdictional disputes with other departments over the 
homeland security mission, battling the Department of Health 
and Human Services (HHS) over the responsibility for medical 
preparedness and response, jousting with the Department of 
Agriculture (USDA) over agricultural inspections and 
agroterrorism. The Department needs a neutral arbiter within 
the White House to settle disputes like this. An independent, 
effective, and I would argue, stronger HSC would better fulfill 
that essential mission. And NSC, not focusing relentlessly on 
the homeland will almost certainly fail to give the attention 
that is needed.
    Nevertheless, I am, of course, open-minded on this issue--
-- [Laughter.]
    And I look forward to hearing the statements of our 
witnesses. Thank you.
    Chairman Lieberman. Thank you, Senator Collins, for that 
very thoughtful and open-minded opening statement. [Laughter.]
    You and I are both open-minded in the same direction.
    I thank Senator McCain and Senator Burris for being here.
    We have a great panel to advise us, people of experience 
and expertise, and I appreciate very much that you are here.
    We are going to start with Governor Tom Ridge, the former 
Governor of Pennsylvania, and the Nation's very first Homeland 
Security Advisor. Though he is now a figure in history, he 
remains youthful nonetheless.
    Mr. Ridge. Yes.
    Chairman Lieberman. We are very glad you are here, Governor 
Ridge. He then went on to become the Nation's first Secretary 
of Homeland Security and served in that position until January 
2005. I was thinking that former Secretary of State Dean 
Acheson once wrote a book called `Present at the Creation,'' in 
which he described the creation of the post-Second World War 
world and the formation of American security policy. You really 
have been both present at the creation and a tremendous 
contributor to our security since September 11, 2001, so we 
thank you for your extraordinary service and welcome your 
comments now on this question before us this morning.

   TESTIMONY OF HON. THOMAS J. RIDGE,\1\ FORMER SECRETARY OF 
                       HOMELAND SECURITY

    Mr. Ridge. Mr. Chairman, thank you. Ranking Member Collins, 
Members of the Committee, thank you for inviting me to speak to 
you this morning. It has been roughly 5 years since I last sat 
before you. I cannot remember when I had so much fun. 
[Laughter.]
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Ridge appears in the Appendix on 
page 27.
---------------------------------------------------------------------------
    Chairman Lieberman, I spoke to you many times as the 
Assistant to the President for Homeland Security and later as 
Secretary of the Department. I wore a different hat then and I 
notice chairs have changed on the dais, as well--the same 
people, different chairs. But nothing has changed for me, and I 
suspect for you, when it comes to the desire we still all have 
to do what we can and what we must to keep our country secure, 
our economy thriving, our people safe, and our republic free as 
we continue to face the ominous domestic and global challenges 
these 8-plus years after September 11, 2001.
    I welcome and appreciate the opportunity to offer my 
thoughts as you review whether or not to merge the Homeland 
Security Council and its functions under the umbrella of the 
National Security Council. I also appreciate that you have 
brought before you people of differing points of view on this 
issue, my colleagues on the panel, which I think allows for an 
approach that hopefully is consensus-driven and an outcome that 
is both thoughtful and bipartisan.
    My personal viewpoint on this issue is that the Homeland 
Security Council should not be subsumed by the National 
Security Council. The Department of Homeland Security is still 
a young, maturing Cabinet agency established just 6 years ago. 
It needs an independent ally and advocate within the White 
House. A good working relationship with the National Security 
Advisor is also important to be sure--but it needs its own 
voice, and a voice that will be heard by its chief report, 
President Obama.
    On the face of it, it is easy to understand why some 
believe that HSC folding within NSC sounds easy enough, and 
certainly appears to be simple, common sense. Many people view 
each council through a national security lens, so why not put 
the two together?
    However, in my view, the merger of these two councils would 
not work and if carried forward would diminish and potentially 
damage a council whose work needs to be elevated, accelerated, 
and properly resourced versus diluted in a mix of security 
roles and responsibilities of an entirely different kind.
    The NSC focus is primarily on foreign governments, military 
involvement, diplomatic involvement, enemy combatants overseas, 
calming geopolitical tensions, mapping the strategies around 
the world, Iraq, Afghanistan, and elsewhere, and addressing 
bubbling military conflicts.
    The Homeland Security Council focuses more on the American 
people. Their constituency is 300 million strong, and the aim 
is keeping our citizens safe and helping them to recover from 
an incident on home soil, not foreign soil.
    The Department as its primary mission is not, on the 
whole--and I repeat this again--not a counterterrorism agency. 
Rather, the chief focus of DHS is the protection of the 
American people. Prevention is part of the DHS role, but as 
much if not more is the responsibility to respond to an attack 
or catastrophic event, minimize the damage should an incident 
occur, and assist in the often long and arduous process of 
recovery.
    Sometimes the true scope of homeland security, frankly, 
gets lost in all the talk of terrorists and tyrants, but it is 
important to underscore that the Department of Homeland 
Security is an all-hazards agency focused on threats and 
potential attacks of any kind, including the threats of 
terrorism, but also the threats and the power and the influence 
of Mother Nature and hurricanes, wildfires, flooding, 
biospills, tornadoes, nuclear accidents, anything that 
threatens the safety of our citizens, in addition to all the 
traditional legacy missions of all those units and bureaus that 
were combined and aggregated into the Department.
    Addressing such hazards requires that the mission of 
Homeland Security not be federally-driven, but national in 
scope. At the Federal level, homeland security encompasses the 
horizontal integration of many Federal Cabinet agencies. From 
HHS to Energy to the Department of Defense (DOD) to the Food 
and Drug Administration (FDA) and elsewhere, more than 30 
departments and agencies have homeland security functions.
    Take biosecurity, for example. I wanted to highlight--and I 
think this is a good way to demonstrate the concern that I 
have. What the United States needs to do to improve our 
biosecurity against major biological threats is extraordinarily 
complex. Biosecurity depends on different programs managed by 
different agencies. There is no way to simplify that.
    DHS is in charge of the biological risk assessment that 
analyzes these threats. HHS is responsible for the research and 
development of medicines and vaccines. DOD does its own 
research and development (R&D). The Food and Drug 
Administration has a role. Let us not forget the National 
Institutes of Health. The Centers for Disease Control and 
Prevention (CDC) is responsible for our Strategic National 
Stockpile and for coordinating the grant program and technical 
assistance to States and locals. The intelligence community is 
responsible for assessing the biological threats posed by our 
adversaries. Without very close White House coordination, our 
bio programs will move in different directions, different 
goals, at different time lines.
    Putting this and other challenges under the NSC's purview 
would only complicate, in my judgment, the NSC's mission and 
the HSC's ability to receive adequate attention as part of the 
National Security Council that is already engaged in Iran, 
North Korea, Russia, Pakistan, India, the Middle East, and 
other matters around the world.
    Moreover, the vast interagency coordination does not end 
there. Federal agents have equally key roles in providing grant 
support, technical assistance, and other forms of aid to State 
and local agencies, those who are first on the scene, whether 
it is a bio event or not.
    And that brings me to one of the most important 
complexities, vertically integrating homeland security 
responsibilities. Homeland Security is a Federal Cabinet 
agency, but the mission is national, and so you worry about the 
horizontal integration, but I also think you have to worry 
about the vertical integration. It is a national mission. It 
requires a national response, and that means well-established 
coordination, communication, and cooperation with our 56 States 
and territories and thousands of localities.
    A significant difficulty in the vertical integration piece 
is that the President and the Federal Government as a whole on 
many occasions lack the authority to mandate States to carry 
forward all recommended or preferred protocols. The Federal 
Government cannot ensure training is carried out and emergency 
equipment is required. The President cannot call out the 
National Guard. Only the governor of the State can do that. 
These kind of sovereignty issues and others led to the creation 
of the Homeland Security Council in the first place, and the 
unique role between relationship building between States, local 
and tribal governments.
    I would also point out that one of our strongest partners 
in the homeland security mission is that of the private sector. 
Its responsibility to secure its own infrastructure, planes, 
railways, bridges, nuclear facilities, and the like, and the 
ability to drive technological innovation, to develop weapons 
of detection, weapons of protection and response are critical 
to the Nation's ability to secure everything from our chemical 
facilities to our Nation's borders and the skies overhead.
    The need to work effectively with the private sector has 
not been a focus of the traditional national security 
community, nor has it been the focus to work with State and 
local governments. But it is readily understood, nurtured, and 
advanced by those with existing national homeland security 
expertise and authority.
    I will not give you the full extent of my testimony, my 
colleagues, but I would like to move forward and make a couple 
of recommendations.
    One, keep it where it is. Instead of relocating it, let us 
reform it. The HSC staff and resources are minimal compared to 
the National Security Council and the HSC is not sufficiently 
empowered to lead the homeland security effort in the White 
House, as was the intention when it was created by Homeland 
Security Presidential Directive 1.
    So let us talk quickly about reform. I would personally 
like to see the Secretary of Homeland Security be a permanent 
member of the National Security Council.
    Second, the Homeland Security Council should not be faulted 
for doing its utmost while lacking the resources to do its job. 
Instead, it would be advisable to staff up the HSC with more 
than adequate resources. It is quite slim compared to the 
formidable staff of the National Security Council. I say again, 
the complexity of its responsibilities far exceed what most 
people understand. Less budgetary and salary constraints can 
make sure that the personnel at the Homeland Security Council 
have the tools and the experience and subject matter expertise 
to do their job efficiently and without impediment.
    And finally, I read about John Brennan's relationship and 
I, too, Senator Lieberman, I have enormous respect for the man. 
We worked with him very closely. His judgment, his analytical 
capability, but I say this again, the third notion is let us 
not categorize the Department of Homeland Security's primary 
mission as counterterrorism. It is not. And having someone such 
as John Brennan, with the stature and the experience, being a 
liaison between the National Security Council and the 
independent Homeland Security Council to make sure that the 
information that HSC, DHS, States, locals and private sector 
need is transmitted in a timely and appropriate way would be a 
huge plus-up for the Department and for the Homeland Security 
Council.
    I think I have exceeded my time. I apologize for that to my 
colleagues on the panel and I look forward to the questions.
    Chairman Lieberman. Thanks, Governor Ridge. Excellent 
testimony, a good beginning to the discussion.
    Next, we have Fran Townsend, who served our country as the 
third person to be Homeland Security Advisor, from May 2004 to 
November 2007. Before becoming Homeland Security Advisor, Ms. 
Townsend served in a variety of positions in the Department of 
Justice and at the U.S. Coast Guard.
    We thank you for being here and look forward to your 
testimony now.

 TESTIMONY OF FRANCES FRAGOS TOWNSEND,\1\ FORMER ASSISTANT TO 
      PRESIDENT GEORGE W. BUSH FOR HOMELAND SECURITY AND 
                        COUNTERTERRORISM

    Ms. Townsend. Thank you, Senator. It is a real privilege to 
be here before the Committee. I have had the privilege of 
working with the Committee, particularly Senators Lieberman and 
Collins, on the Intelligence Reform and Terrorism Prevention 
Act, the Homeland Security Act, and so it is a privilege to be 
back before you.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Townsend appears in the Appendix 
on page 31.
---------------------------------------------------------------------------
    There is no more solemn responsibility that the President 
bears than to protect American lives. During my 4\1/2\ years at 
the White House, I came to believe for that reason, 
organization must be dictated by effectiveness, and so I think 
you will find, Senator, that I, too, come here with an open 
mind, not as an advocate, but suggesting a framework by which 
you might consider this issue.
    How best to maintain effectiveness will inevitably change 
over time as we continue to see the weakening of al-Qaeda and 
our other enemies and the continued strengthening of the 
Department of Homeland Security and as our government better 
learns how to integrate the various capabilities that it has 
across the Federal Government since the tragedy of September 
11, 2001.
    As you consider the most effective means of organizing the 
White House structure, I would respectfully submit that any 
structure should be judged against three fundamental criteria. 
First, there must be a single person both responsible and 
accountable to the President who monitors threat information 
and who has the authority to marshal all instruments of 
national power--military, intelligence, law enforcement, 
economic, diplomatic, and public diplomacy--to defeat those 
threats. The individual cannot wait until the threat arrives on 
our shores, but must have the responsibility, as I did, and the 
means to identify those threats where they originate and to 
ensure a coordinated response to defeat them. The President's 
Homeland Security Advisor must not be constrained by geographic 
boundaries that our enemies fail to respect.
    Second, the Homeland Security Advisor must have direct and 
immediate access to the President. Ultimately, if terrorists 
successfully strike the United States, it is the President and 
not his staff who will be accountable to the American people 
for the failure. The Homeland Security Advisor must be able to 
get to the President quickly without the clearance from his or 
her colleagues on the White House staff. Unfortunately, there 
will be times when American lives are at stake, whether that is 
from a terrorist threat or a natural disaster, and the 
President will need to be advised, and operational decisions 
taken and communicated to the relevant Cabinet Secretary in 
real time. These sorts of crises do not lend themselves to the 
normal bureaucratic process.
    Third, the homeland security issues faced by our government 
are diverse and many, as Secretary Ridge outlined. They range 
from preparedness and response to natural disasters, ice, 
flooding, fires, wind, to pandemic planning and biological and 
nuclear threats. These issues are often distinct from the more 
traditional foreign policy issues faced by the National 
Security Council and require experienced staff with significant 
expertise. The staff must understand State and local emergency 
management policy issues and concerns. They must be organized 
not simply to facilitate the homeland security policy process, 
but also to anticipate and respond to State and local political 
leaders in a time of crisis. The Homeland Security Advisor 
requires adequate staffing to deal both with counterterrorism 
and homeland security issues.
    We remain a Nation at war with a very determined enemy. We 
have troops deployed in both Iraq and Afghanistan, and the 
National Security Advisor has many important responsibilities 
in addition to those two theaters. For example, he must contend 
with the Middle East peace process and counterproliferation 
around the world, most especially in Iran and North Korea. I 
worry that increasing the span of control of the National 
Security Advisor could dilute the homeland security mission and 
make it just one more item on a list that is already 
overburdened.
    That said, I wish to be clear. We should judge any 
potential reorganization by the substance and criteria, as I 
have suggested. We must be careful not to assume that a merger 
means the President cares less about homeland security. We must 
resist the easy organizational chart test and look at the 
substance of how responsibilities are allocated and how we are 
being protected as a Nation.
    Again, let me suggest the three questions I would hope the 
Committee would ask. Is there one person responsible and 
accountable to the President who looks around the world and 
advises the President? Second, does this one person have direct 
and immediate access to the President? And third, does this 
person have adequate staff to fulfill his or her 
responsibilities? These are the questions that we should be 
asking and the criteria against which we should judge the 
effort.
    Senator thank you again for the opportunity to be here and 
to testify before you.
    Chairman Lieberman. Thanks, Ms. Townsend. Excellent, very 
helpful testimony.
    We move now to our last two witnesses, both of whom have 
been in government but also have thought a lot about these 
issues. First, Christine Wormuth is a Senior Fellow at the 
Center for Strategic and International Studies (CSIS) and has 
served previously in the Office of the Secretary of Defense. 
She has also written extensively on the need for interagency 
reforms, particularly for more effective incident management.
    We are very happy to have you here and please proceed with 
your testimony.

     TESTIMONY OF CHRISTINE E. WORMUTH,\1\ SENIOR FELLOW, 
   INTERNATIONAL SECURITY PROGRAM, CENTER FOR STRATEGIC AND 
                     INTERNATIONAL STUDIES

    Ms. Wormuth. Thank you, Chairman Lieberman and Members of 
the Committee, for inviting me here today. I greatly appreciate 
the opportunity to share my views with you.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Wormuth appears in the Appendix 
on page 33.
---------------------------------------------------------------------------
    I want to say, as a self-described homeland security 
zealot, I very much want to see homeland security issues 
elevated inside of the White House and receive more time and 
attention from the President. I very much want to see the 
Department of Homeland Security be more effective and spend 
less time fighting bureaucratic battles. So I actually, while I 
am a proponent of merging the Homeland Security Council into 
the National Security Council, I offer that recommendation in 
the spirit of trying to achieve, I think, the same objectives 
as the witnesses here on the panel and many of the objectives 
that Senator Collins mentioned.
    I would like to talk a little bit about why I think 
organizational changes at the White House are necessary and 
then I would like to put out a handful of design principles 
that I think are worth thinking about when considering 
organizational options. And finally, I would like to talk 
briefly about how I think a merged Security Council might work.
    Fundamentally, homeland security issues, in my view, are 
both inextricably part of national security issues and are 
inherently interagency and intergovernmental in character, that 
vertical integration of which Governor Ridge spoke. In our 
system of government where you have a Cabinet made up of 
independent department secretaries who each answer directly to 
the President, I think the only way to have a well-functioning 
homeland security enterprise is to have a White House structure 
that is very strong and that provides overall direction, sets 
priorities, and resolves interagency disputes in the policy 
development process.
    To date, I think the Homeland Security Council has 
struggled to be effective in this role for three reasons. 
First, by establishing a separate council and an associated 
staff to address homeland security issues, the White House 
under President Bush artificially bifurcated its approach to a 
wide range of important national security challenges.
    Today, most national security challenges have international 
and domestic components that need to be addressed holistically. 
For example, preventing and countering nuclear proliferation 
starts overseas, but has important elements here at home, such 
as preventing movement of weapons of mass destruction (WMD) 
into the country, neutralizing WMD, if possible, and then 
consequence management strategies are going to be needed at 
home if we are not able to keep the worst from happening.
    Effectively combatting terrorism involves not only tracking 
down the terrorists overseas, but also working with State and 
local law enforcement to prevent radicalization of individuals 
here in the United States. Another example is determining how 
to allocate finite military capabilities, and that requires 
weighing and prioritizing international and domestic 
requirements to best manage the overall level of risk to the 
Nation.
    Addressing these kinds of challenges requires an integrated 
approach, but I think that is difficult to achieve when you 
have two separate organizations working the issues in the White 
House. In a world where it is difficult to define where 
homeland security ends and national security begins, managing 
today's globalized challenges using two separate organizations 
may no longer be the best answer.
    Second, as numerous practitioners and commentators have 
noted, the agency to date, sadly, has largely been perceived as 
the NSC's weak stepbrother. For example, the NSC has more than 
200 staff and the HSC most of the time has had around 35 to 45 
people. Given the breadth and complexity of the homeland 
security challenges and the homeland security landscape, this 
just is not enough people to do justice to the issues.
    Moreover, I believe that the perceived second-class status 
of the HSC has made it more difficult to attract the best and 
brightest staff to the organization. While there have 
absolutely been excellent public servants serving on the HSC, 
on balance, more of the HSC staff come from political 
backgrounds and have a lesser overall level of professional 
experience than their NSC counterparts. This disparity, I 
think, has made it more difficult for the HSC staff to work 
effectively with their peers in the interagency.
    From an organizational process, you want to have a 
structure in the White House that is going to provide the best 
possible advice and support to the President, be able to inject 
that advice into the interagency process, and oversee its 
implementation. It is not clear in my view to date that the HSC 
has had the personnel to really fulfill this mandate.
    Third and finally, I think the HSC as a separate 
organization so far has struggled to lead the interagency 
process in developing core strategy and guidance on homeland 
security issues and in overseeing the implementation of those 
policies once they are developed. I think a part of this is 
because of the small staff and some of the issues that Governor 
Ridge mentioned, but I think it is also associated with the 
Bush Administration's preference for the lead agency approach, 
which has the NSC and HSC staffs playing more of a coordination 
role than a policy development role.
    In my view, as security challenges become more complex and 
interrelated, the lead agency model is likely to prove 
inadequate to many of the security tasks we have ahead. Current 
and future security challenges require a strong White House 
structure to develop integrated strategies and oversee their 
implementation. I also believe a more effective White House 
structure would enable DHS, a relatively new and fragile 
bureaucracy, to spend less time fighting bureaucratic battles 
and more time maturing as an organization, which I think is 
very important.
    When you think about how you might reorganize or 
restructure in the White House, really, it is results, not 
wiring diagrams, that are what matter. With that in mind, I 
would like to put forward four principles that I think could 
guide thinking about how to organize at the White House level.
    First, the White House structure should enable homeland 
security issues to be considered substantively as part of the 
larger national security domain.
    Second, the White House structure should facilitate 
consideration of homeland security issues as equally important 
to traditional national security issues. As a former DHS 
official said in a New York Times article about the potential 
for a merger, you want your issues considered. You do not want 
to be off in some second bucket, which is, I think, how a lot 
of people have perceived it so far.
    Third, the White House structure should enable the staff 
organization to serve as an honest broker in the interagency 
process, and if necessary, to be strong enough to enforce 
implementation of presidential decisions and priorities on 
reluctant Cabinet actors, if that is necessary.
    Fourth and finally, the White House structure should 
facilitate recruitment and retention of the best possible staff 
with the full range of expertise and experience that is needed 
across the spectrum of the homeland security disciplines.
    In my view, the best way to achieve an organization that is 
consistent with these design principles is to merge the HSC 
into the NSC. In reports we have published at CSIS, we offered 
a structure that would include two, and only two, Deputy 
National Security Advisors under the National Security Advisor: 
A Deputy for Domestic Affairs and a Deputy for International 
Affairs. Reflecting the view that most national security 
challenges have international and domestic components, many of 
the staff in the merged council would report to both of these 
deputies.
    And to try to address a concern Senator Collins raised, she 
is absolutely correct that the individuals in the White House 
that are going to be managing the homeland security issues have 
to have the stature to be able to interact effectively and 
adjudicate, frankly, disputes between Cabinet secretaries. To 
do that, these two deputies would have to have very significant 
stature and experience to be able to operate effectively at 
that level.
    But I believe under this kind of arrangement, you would no 
longer have a situation where homeland securities are 
organizationally stovepiped, and I think they would be more 
likely to receive the kind of serious attention that 
traditional security matters receive in the NSC.
    The merged Security Council that we put forward would be 
empowered to lead the interagency in formulating homeland 
security policy and to oversee its implementation on behalf of 
the President. In reading last Sunday's article in the 
Washington Post, it seems evident to me that President Obama 
and General James Jones, the new National Security Advisor, are 
clearly envisioning a more robust structure in the White House 
to address national security issues.
    While many scholars and organizations have recommended a 
merger of the two councils, there certainly are arguments 
against a merger, and we have heard some of them this morning. 
I think the two most prevalent arguments against a merger are 
that, one, the National Security Advisor (NSA) already has too 
many issues on his or her plate, and two, the traditional 
National Security Council staff does not have the expertise in 
homeland security issues to do justice to those issues, and 
under a merger you then might actually run the risk of having 
the issues be handled less skillfully than they are today.
    It is true that the NSA already has one of the most 
grueling jobs in Washington, bearing responsibility for a vast 
array of issues. Merging the two councils would, I believe, add 
to this burden. But in my view, the benefits of addressing 
security challenges holistically and elevating homeland 
security issues to be on an equal footing with traditional 
national security issues outweighs the concerns about the span 
of control.
    In a merged council, the National Security Advisor 
ultimately would be the single person responsible and 
accountable to the President for the full range of challenges. 
Again, to try to ease the burden of that span of control, we 
offer two deputies who would essentially manage the two 
portfolios, homeland and national security, on a day-to-day 
basis. In the event of a crisis, the President would have to be 
able to turn to either one of those deputies to do day-to-day 
crisis management. Both deputies would have to have a very 
close relationship with the National Security Advisor for that 
to work effectively.
    The second major argument against merging the two councils 
is that the traditional NSC staff does not have the appropriate 
expertise or experience. I think the best way to address this 
concern is to be straightforward. Do not try and staff the 
homeland security issues with people with traditional national 
security backgrounds. Instead, populate the merged council 
staff with sufficient numbers of personnel with backgrounds in 
the full range of disciplines, from law enforcement and 
intelligence to critical infrastructure to emergency 
preparedness and response, and ensure that these individuals 
understand and are sensitive to the concerns of State and local 
governments.
    I see that I have run over time, so I just want to end and 
say, again, I think that how you manage these issues out of the 
White House is one of the most important determinants of 
ensuring we approach these challenges from a whole of 
government perspective, and I think the best way to do that is 
to merge the two councils. Thank you very much.
    Chairman Lieberman. Thank you very much. That was clear and 
direct, and different from what we heard from our first two 
witnesses. I will look forward to their response to some of the 
things that you had to say. I appreciate it very much.
    Our final witness is James Locher. He has had quite an 
extraordinary record and resume of service. Most significant to 
us here is that he served as a staff member of the Senate Armed 
Services Committee, and particularly during the Goldwater-
Nichols legislation, which was very important. He has also been 
Assistant Secretary of Defense for Special Operations and Low-
Intensity Conflict, both under President Clinton and under the 
first President Bush.
    He comes to us now as Executive Director of the Project on 
National Security Reform, which was a congressionally organized 
and supported entity that recently culminated 2 years of study 
with an extensive report and implementation plan which was 
presented to the Administration. Incidentally, and for what it 
is worth, among the bipartisan guiding coalition for the 
Project on National Security Reform were General Jim Jones, now 
the National Security Advisor, and Admiral Denny Blair, now the 
Director of National Intelligence.
    Mr. Locher, thank you for your work, and for being here. 
Please proceed with your testimony.

 TESTIMONY OF HON. JAMES R. LOCHER III,\1\ EXECUTIVE DIRECTOR, 
              PROJECT ON NATIONAL SECURITY REFORM

    Mr. Locher. Thank you, Mr. Chairman and Members of the 
Committee. I am delighted to be here to talk to you about the 
organization for national security and homeland security in the 
White House and across the Federal Government.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Locher appears in the Appendix on 
page 41.
---------------------------------------------------------------------------
    Most fundamentally, I believe that drawing a bright line 
between national security and homeland security, as current 
arrangements do, is a mistake. The Nation would be better 
served by merging the National Security Council and Homeland 
Security Council into a single council, but with safeguards to 
ensure that homeland security issues are not lost in a unified 
system.
    This hearing addresses a key issue: How should the highest 
level of the U.S. Government be organized to protect the 
Nation's security? It is important, however, Mr. Chairman, to 
put this specific issue into a much larger context. The overall 
national security system, including its national security and 
homeland security components, is broken. About the seriousness 
of our organizational problems, the Project on National 
Security Reform's guiding coalition, made up of 22 
distinguished Americans, stated in its November report, ``We 
affirm unanimously that the national security of the United 
States of America is fundamentally at risk.''
    The basic problem is the misalignment of the national 
security system with 21st Century challenges. Today's threats 
require a tight integration of departmental expertise and 
capabilities. We need highly effective teams that stretch 
horizontally across departmental boundaries. Our government, 
however, Mr. Chairman, is dominated by rigid, bureaucratic, 
competitive, vertically-oriented departments and agencies. In 
sum, we have horizontal problems and a vertical government.
    This misalignment results from a gross imbalance. We have 
powerful departments and agencies, while our integrating 
mechanisms, the National Security Council and Homeland Security 
Council, and their staffs are weak. Missing are robust 
mechanisms capable of producing tight, effective integration. 
This imbalance was a design flaw of the National Security Act 
of 1947 and this flaw was carried forward into the Homeland 
Security Council, which was modeled on the 60-year-old National 
Security Council.
    In recent years, Mr. Chairman, there has been compelling 
evidence of the inadequacy of current arrangements: The 
terrorist attacks of September 11, 2001, troubled stability 
operations in Iraq and Afghanistan, and the poor response to 
Hurricane Katrina. These setbacks are not coincidental. They 
are evidence of our organizational dysfunction. Bold 
transformation of the national security system must happen. 
Otherwise, we will suffer repeated setbacks, wasted resources, 
and declining American power and influence.
    Among the early reform topics to be addressed is the issue 
of this hearing, how to organize our integrating mechanisms at 
the top of government. In response to the terrorist attacks of 
September 11, 2001, we bifurcated national security into two 
major components, what we called national security and homeland 
security. This bifurcation served the important function of 
jump-starting our attention to many long-neglected tasks in 
protecting the American homeland. Although additional 
improvements are needed, we have succeeded in elevating these 
tasks to an appropriate level of attention.
    The basic question now becomes, does this bifurcation at 
the very top of government serve our needs in handling the 
increasingly complex and rapidly changing security environment 
of the 21st Century? The answer is no. Dividing our security 
components at the water's edge is artificial and creates an 
organizational boundary, a barrier, gaps and seams that weaken 
our overall security posture.
    The security challenges that the United States faces, Mr. 
Chairman, must be viewed in the context of one global system. 
National security and homeland security are subsystems of the 
larger global system. But the overarching organizing principle 
for the U.S. national security system must be the global 
system. We must assess this system as a whole and understand it 
in the global security environment. Decisions on our policy, 
strategy, planning, development of capabilities, and execution 
will maximize our security when they are taken in an 
integrated, systemwide context, not when they are artificially 
subdivided. Moreover, by having separate National Security and 
Homeland Security Councils, we force the President to integrate 
across this divide. He does not have the time or capacity to do 
so.
    This past week, General Jim Jones, President Obama's 
National Security Advisor, discussed the major changes that the 
President and he intend to make at the top of the national 
security system. In an interview in the Washington Post this 
past Sunday and a speech on the same day in Munich, General 
Jones stated that the National Security Council would expand 
its membership and have increased authority to set strategy 
across a wide spectrum of international and domestic issues. In 
essence, many, if not all of the functions of the Homeland 
Security Council may be subsumed into the National Security 
Council. At the same time, as has been mentioned, General Jones 
has asked John Brennan to do a 60-day review to ensure homeland 
security issues will receive appropriate attention in a merged 
council.
    The Project on National Security Reform agrees fully with 
the changes that General Jones outlined. Our own 
recommendations parallel the direction that President Obama and 
General Jones have set. This convergence is not surprising. As 
the Chairman mentioned, General Jones served on the Project on 
National Security Reform's guiding coalition, as did other 
Obama appointees, Admiral Denny Blair, Jim Steinberg, and 
Michele Flournoy.
    Merging the HSC and NSC is a critical step towards building 
a more coherent and unified approach to national security in 
the broadest sense of the term. Though I believe that a merger 
is a necessity, it must be undertaken with safeguards that will 
ensure homeland security issues remain at the forefront of 
national security affairs. Merging the NSC and HSC must be done 
in a way that ensures that homeland security issues receive the 
focus and resources they deserve.
    Mr. Chairman, as the Committee approaches this issue, it 
has two hats to wear. The first hat is as the Senate's overseer 
of homeland security functions. The second hat, focused on 
government affairs, in my view, ranks more important in 
examining this issue. To make a wise decision on this 
organizational question, we must take a whole-of-government 
perspective focused on the global system. Doing so, in my view, 
reveals the value of the new direction that the Obama 
Administration intends to pursue.
    This Committee, Mr. Chairman, worked hard to create the 
Department of Homeland Security and to guarantee in law a 
functioning Homeland Security Council. The idea of merging the 
HSC and the NSC is intended to preserve and enhance the key 
roles of both councils through integration, not subordination. 
And since the details of the integration are still under study 
by the new Administration, I trust that this Committee's views 
can help shape the final arrangements. I believe that you 
should view integration as an opportunity for preserving high-
level focus on homeland security issues, not as a threat to 
that vital function.
    Mr. Chairman, Members of the Committee, thank you again for 
inviting me to speak on this important subject and I look 
forward to answering any questions you may have.
    Chairman Lieberman. Thanks very much, Mr. Locher. Thanks 
for the case that you put before us.
    Incidentally, Mr. Brennan has made very clear that he wants 
to hear the Committee's opinions on this question of whether to 
merge. As I said at the outset, ultimately, the basic structure 
should be in law. Presidents will come and go who will change 
pieces of it, but the basic judgment is there.
    Secretary Ridge and Ms. Townsend, Ms. Wormuth and Mr. 
Locher put together strong arguments before this Committee now 
for merging the two councils. You obviously have different 
points of view and I want to give you a chance to respond now.
    Mr. Ridge. Well, first of all, I want to thank my 
colleagues on the panel. I think it has been a very thoughtful 
and a very thought-provoking discussion----
    Chairman Lieberman. It has.
    Mr. Ridge [continuing]. And I appreciate that. It just 
seemed to me that running through the testimony of my 
colleagues who disagree with this opinion, they talk about 
staffing, which I do not think has as much to do with 
integration as it does with adequate resources. They talk about 
the need to elevate the visibility and the stature of the 
Homeland Security Council. It is tough for me to conclude that 
you elevate the stature by subsuming it into a large 
organization that is dominated by the military.
    They do talk very specifically, and I share the point of 
view with them that it ought to be integrated into the global 
perspective, but I would say to them, respectfully, that the 
National Security Council is uniquely and almost exclusively 
global. The Homeland Security Council, there is redundancy 
there. In part the focus is global, but in equal part or even 
larger measure, it is national, State, local, and private 
sector.
    Whether it is immigration or whether it is bioterrorism, 
these issues being subsumed into a completely different 
structure where the voice of the Homeland Security Council 
mission is part of, again, this larger, more complex entity, I 
just think reduces and diminishes, does not elevate. I think 
the one cause we all believe in, we need to elevate it.
    Chairman Lieberman. Right.
    Mr. Ridge. But subsuming it, I do not think gets us where 
we all want to be.
    And then the other concern I might have is just that 
Homeland Security is not a mature agency. The Department is not 
mature yet. The traditional NSC, DOD, and the Department of 
State are. National security is more external. Homeland 
security is more internal. For national security, there is 
overlap within HSC, but foreign affairs and foreign engagement 
are the primary responsibility of the NSC, and only secondarily 
for the Homeland Security Council though in important ways.
    Two quick examples, and then I will turn to my colleagues. 
There was a notion that you think about in terms of nuclear 
proliferation. Is there a potential role for Homeland Security 
there? Yes, but is it the same level, status, focus, resources, 
and outreach as the National Security Council? Absolutely not. 
It becomes a role for the Homeland Security Council in terms of 
prevention or in terms of response and recovery if the NSC does 
not do its job with regard to proliferation.
    In terms of intelligence sharing, the Homeland Security 
Council and the Homeland Security Department are consumers of 
information. It does not really generate it. The great role is 
to have global information being shared with the Department and 
with the State and locals. There is a joint global interest 
there, but it is primarily in the NSC's sphere, not in the 
HSC's sphere.
    So at the end of the day, I think suggesting everything 
that the Homeland Security Council or the Department of 
Homeland Security does you can tie into the global dimension, I 
think is an inadequate description of the overall 
responsibilities that it has, and I apologize for the lengthy 
answer.
    Chairman Lieberman. Not at all. Ms. Townsend.
    Ms. Townsend. Senator, both of my colleagues make the 
argument that there should not be the bifurcation that 
currently exists, that a bright line would be a mistake. I 
would say to you that as a sort of theoretical matter, I agree 
with that.
    There was not a bifurcation when I was there as Governor 
Ridge experienced as Secretary and after he departed the 
Department. I had responsibilities overseas, as well, as 
related both to counterterrorism and homeland security because, 
of course, to the extent any individual Nation takes seriously 
their own homeland security and invests in their homeland 
security, it reduces the threat to us. And so I worked across 
geographic boundaries. It was not limited. I spent a tremendous 
amount of my time on the homeland issues. But the fact that we 
have a staff that is a Homeland Security Council that focuses 
exclusively on homeland missions is not a bifurcation that 
causes a problem. In fact, it enhances the capability.
    The HSC was not treated, in the 4\1/2\ years I was at the 
White House, as a second-class citizen or a stepchild. I sat in 
many NSC meetings, for example, in the counterterrorism area, 
related to Pakistan and the tribal areas because that posed a 
threat to the United States.
    Chairman Lieberman. Who would decide that, when you would 
attend a NSC meeting?
    Ms. Townsend. It was a very collaborative relationship with 
the National Security Advisor. Obviously, I worked both with 
Secretary of State Condoleezza Rice, when she was the National 
Security Advisor, and with Steve Hadley when he was. It was 
also true if it was a proliferation issue. I sat in on those 
meetings. Or, as you can imagine, when you are discussing 
immigration policy or visa waiver, issues that have a very 
serious homeland security impact, if this was a homeland 
security meeting, Steve Hadley was invited and members of his 
staff, so we worked as an integrated whole.
    What was important was, as to Governor Ridge's point, 
homeland security issues need an advocate in the White House 
who can work across and ensure the very integration that my 
colleagues suggest.
    Let me make one last point, because in fairness, it is the 
one that I cannot just let go. There have been suggestions by 
my colleagues that there is more staff needed. I think that is 
right. I think the issues are serious and there are many, and 
so I do agree there needs to be more staff. But to suggest that 
the Homeland Security Council staff at the White House was 
political or inexperienced is unfair and inaccurate. In fact, 
these brave public servants who worked many long hours to 
protect the American people came from not only the various 
departments and agencies across the Federal Government, they 
came from academia and from Capitol Hill, some of whom have 
returned here, so I presume that my colleagues in Congress 
would not think them inexperienced. And so in fairness to those 
people, they worked very hard and we recruited them and 
retained them because of their experience.
    Chairman Lieberman. Thanks very much.
    I want to ask a quick question to Ms. Wormuth. In your 
testimony, you say that HSC has been viewed often as NSC's weak 
stepchild, and part of that was the lack of comparable funding 
resources for the Homeland Security Council as compared to the 
National Security Council. Am I correct to assume, however, 
from your testimony, that you think the problem was more than 
that? In other words, let us assume that we could equalize the 
resources, or at least greatly increase the resources, staff, 
etc., that the Homeland Security Council had, that would not do 
the job because even then, a merger would be necessary?
    Ms. Wormuth. Well, Senator Lieberman, for me, the primary 
argument in favor of the merger as opposed to a reform of the 
HSC, as Governor Ridge has argued--I think there is a lot of 
value there. I think many of the issues that have been 
challenges for the HSC could be addressed through reforms in 
terms of getting at some of the staff issues. But to me, the 
most important issue is the integration issue that Mr. Locher 
and I talked about. So I think that is the strongest argument, 
trying to change how we address the issues conceptually.
    That said, to your specific question, you could fix the 
funding issues, I think, and you could clearly fix the number 
of staff that have been on the homeland security side without 
doing a merger. I think the issue really in part is a somewhat 
intangible one. Because the HSC, whether fairly or unfairly, 
was perceived as being weaker than the NSC, it simply made it 
more difficult for the staff to get the job done and that is 
what I am getting at.
    I would argue that by merging the two organizations into 
one, and the NSC having already a long-established history with 
a lot of stature, it is easier to recruit people to that 
organization because there are literally civil servants banging 
down the door to have the opportunity to go to the NSC. So that 
is a slightly intangible thing.
    And just to be clear, I certainly do not, and I tried to be 
clear on this in my statement, I do not want to impugn in any 
way the quality of the people on the homeland security staff. 
They were excellent public servants. The experience issue, I 
think, is relative to the NSC staff, but I am by no means 
saying that you had inappropriately qualified or 
inappropriately politicized staff. I just want to be clear on 
that.
    Chairman Lieberman. Good. I appreciate that you said that.
    I am going to yield now to Senator Pryor. I want to express 
my regrets to the Members of the Committee because I have 
really been engaged in your testimony.
    Senator Collins and I, as you may have heard, are not only 
involved in matters of homeland security, we are also involved 
in matters of economic security these days. She is out of here 
for that reason. I have been asked to go join her. I hope I can 
return. But Senator Pryor, enjoy the chair.
    Senator Pryor. Thank you.
    Chairman Lieberman. If you are ready to adjourn, just send 
somebody back to make sure that we do not want to come back 
out. Thank you.

               OPENING STATEMENT OF SENATOR PRYOR

    Senator Pryor [presiding]. I would be glad to. Thank you, 
Mr. Chairman. Thank you for your leadership on this and all of 
the Committee pending issues.
    Let me, if I may, start with Mr. Locher. Your organization 
is the Project on National Security Reform, and the first 
question for you is how important is it to you in your effort 
to reform national security to have this merger? How important 
is that?
    Mr. Locher. We think it is one of the very fundamental 
reforms that needs to be undertaken.
    Senator Pryor. And why?
    Mr. Locher. Well, in our view, as I mentioned in my 
statement, the world is incredibly complex and it is moving 
very rapidly, and this bifurcation into two components at the 
very top of our government is not serving us well now and will 
serve us less well in the future. We think that in the National 
Security Council, we need that expertise on homeland security 
and it needs to be improved over what it is today. But we want 
it in one system where we can look at the global security 
environment instead of having two separate organizations that 
are doing that.
    When you have two separate organizations, you have two 
separate strategies, you have two separate sets of policies, 
you have different processes, and we have the view that the 
integration at the highest level will serve us well. There will 
be much more integration that is required at lower levels where 
we can bring departments and agencies together in a true 
teaming fashion to address the Nation's problems.
    Senator Pryor. Let me ask again on your vision and what 
your group is working on, how would you like to see it 
structured? Would you like to see the homeland security 
component of that to be a separate subset of the National 
Security Council, where they would always be a little bit 
distinct and always focused on the homeland issue of this? Tell 
me how you guys would structure it if you could.
    Mr. Locher. The first thing I should say is that if you 
look at our current approach to national security, the National 
Security Council, it really has the World War II concept of 
national security. It is still focused on defense, diplomacy, 
and intelligence. That is the membership. The Secretary of 
Energy has been added recently by the Congress.
    We know in today's world that national security is much 
broader than that. We have all of the economic issues that need 
to be addressed. There are lots of law enforcement and legal 
issues that need to be part of it. There are the environmental 
issues and the energy issues that need to be addressed.
    And so in our project, as we looked at this broadening 
scope of national security, we have proposed that there be one 
council at the top to serve the President. It would not have a 
specified membership, rather the President would pull to that 
council table the expertise that he or she needed for any 
particular issue. So it would be a much more flexible 
arrangement. It would be driven issue by issue. If the meeting 
gets too large and it becomes a formal arrangement as to who is 
going to attend, it does not serve the President's needs and it 
wastes lots of time of our senior busy officials at the top of 
our government.
    So we have in mind, and this is something that General 
Jones in his interview in the Washington Post and in his speech 
at Munich laid out in terms of his view as to how the National 
Security Council would be structured in the Obama 
Administration, a much larger membership because we know that 
we need more expertise brought in on national security issues, 
but that the membership would be selected, the attendees would 
be based upon an issue-by-issue basis.
    Senator Pryor. How do you protect against the concern that 
if you do the merger, that the homeland security focus will be 
swallowed up by the national security focus?
    Mr. Locher. Well, obviously, that is a legitimate concern. 
I think, in my view, that we can get the benefits of a merged 
system while ensuring that the homeland security issues receive 
appropriate attention, and I think the step that General Jones 
has taken by asking Mr. Brennan to do this 60-day review is a 
good indication that he understands that there are benefits to 
be achieved by merging the two councils, but he wants to make 
certain that we are going to have the safeguards to make 
certain that homeland security issues are at the forefront.
    In my view, I have lots of confidence in General Jones. He 
is quite a capable leader and manager and I think that he would 
be a forceful advocate on homeland security issues. I think he 
is very determined to ensure that they have a proper place in a 
merged council.
    Senator Pryor. Yes. I think a lot of us have a lot of 
confidence in General Jones. One of the things that I am sure 
we are thinking about is the next guy, whoever that may be, and 
just to make sure they get it.
    Let me, if I can, change to Secretary Ridge. Again, Mr. 
Secretary, thank you for your public service. We appreciate 
your time very much.
    When I look at these two organizations, you have the 
Homeland Security Council and the National Security Council. 
The names sound the same because they both contain the words 
``security council.'' In your view, are they fundamentally 
different in what they do and should be doing, and can you put 
them together in a way where the two missions that exist right 
now can be compatible under one roof?
    Mr. Ridge. Thank you, Senator, for the question. I think 
there are fundamental differences between their missions. There 
is no doubt in my mind that homeland security has, to Mr. 
Locher's point and Ms. Wormuth's point, a global and an 
international component, and it is a significant part, but it 
is not the exclusive domain of homeland security, whereas the 
National Security Council, given the perils of the world today 
in the 21st Century, you spin the globe and you say, General 
Jones is going to deal with all that with just 200 people?
    In a culture, let us face it, that is dominated by 
primarily one large department, the Department of Defense, a 
culture that historically rarely is engaged within the domestic 
front--I mean, there was some logistic support in Hurricane 
Katrina, but for a lot of legal reasons, we do not have the DOD 
doing some of the work that DHS would do, there is a whole 
range of legal issues like posse comitatus--so you say to 
yourself, the missions are fundamentally different.
    The constituency they seek to serve--obviously, they both 
serve 300 million Americans, but how they effect their mission 
is quite different. A successful National Security Council is 
engaged in countries and citizens of other worlds and a 
successful Homeland Security Council is engaged primarily with 
citizens of the United States.
    Senator Pryor. Let me interrupt you right there, not to 
knock you off track but just for clarification. In your view, 
do both right now have the same and equal access to the 
President?
    Mr. Ridge. I cannot speak for the situation now, but my 
colleague, I think, had a very unique perspective when she 
indicated that as the Assistant to the President for Homeland 
Security, a great deal of her time was on counterterrorism. A 
great deal of her time was on the global side, the 
international side. But she would put another hat on and go to 
another meeting and deal with domestic concerns within the 
Department of Homeland Security--this is an organization and a 
Cabinet agency that is still maturing, still growing, still 
learning, and still needs to integrate. There are still 
significant turf battles not only within the Department, within 
the horizontal framework within which it has to operate.
    And I say to myself, will a Deputy Secretary of the 
National Security Council be bringing together two or three 
Cabinet members and say, this is the way it is going to be? I 
do not think so. It is not as if General Jones does not have 
enough on his plate.
    And I just think, again, you subsume it into a much larger 
organization with a different culture, with an exterior focus 
rather than an interior focus, and I think you have not 
elevated it. I think you have created some problems in terms of 
organization and in terms of outreach to the State and locals.
    Senator Pryor. Let me ask the rest of the panel, if I can, 
to comment on what Secretary Ridge said about the mission being 
fundamentally different. Would any of you like to comment?
    Ms. Wormuth. I think there are certainly differences and 
unique aspects to homeland security, and particularly in its 
vertical quality, that is a characteristic, I think, of the 
mission that you have not seen to date as much on the national 
security side. I absolutely agree with the recommendation that 
Governor Ridge made in his statement that whatever the 
structure is in the White House, you need to have a very strong 
core of State and local understanding to be able to address 
that part of the homeland security challenge.
    However, I think the national security side is evolving to 
a certain degree to move beyond its traditional overseas focus, 
and you see this more and more, for example, on the evolution 
of the regional combatant commands in the military that are 
starting to have different structures inside of them to deal 
more effectively with the interagency activity and to deal more 
effectively with the private sector. You are really starting to 
see, I think, that evolution, and in my mind, that again is a 
global evolution, which is where we need to go.
    So I think in a way, the homeland side is already farther 
along, but I think the national security side is moving in that 
direction, as well, and again, I tend to see the issues as part 
of a single system and I just think trying to address it 
structurally as a single system is the best way to go.
    Mr. Locher. Senator, if I might, I would like to add one 
point. Secretary Ridge was talking about how we only have 200 
people in the National Security Council staff. If you think 
about the headquarters of our national security system, we have 
two components now, the National Security Council staff and the 
Homeland Security Council staff. They are incredibly small. We 
have a four million-person national security system and we have 
a headquarters that is that small and it has no headquarters 
powers. It is completely advisory. Not only does it have a 
small staff, it has an incredibly small budget. I know the 
budget for the National Security Council is like $8.6 million 
for all of the things that they have to do.
    One of the things that General Jones said in his interview 
that was in the Washington Post is he talked about a much more 
robust role for the National Security Advisor, essentially 
going from a National Security Advisor to a National Security 
Manager, where, right next to the President, we have much more 
authority to make a system that is decisive, a system that is 
fast, that ensures that we have integrated activity, and that 
we have lots of collaboration.
    And so when we think of this one issue that we are 
discussing today, it needs to be put in the larger context of 
some of the other changes that President Obama and General 
Jones have in mind.
    Senator Pryor. OK.
    Ms. Townsend. Senator, if I might make----
    Senator Pryor. Yes, ma'am?
    Ms. Townsend [continuing]. Two quick points: You asked 
Secretary Ridge about equal access with the National Security 
Advisor. I was the longest-serving Homeland Security Advisor to 
date and I can tell you, I was in the President's daily 
briefing in the morning. I had the complete access that Steve 
Hadley or Condi Rice had. I never had a problem in terms of my 
immediate access to the President, particularly in a crisis 
where I needed to advise him. And so it was not a question of, 
at least from my perspective, having a disparity in terms of 
accessibility to the President or into information.
    One example I would use, Governor Ridge talked about the 
difference of focus on issues. Probably one of the things I 
spent a tremendous amount of time on that the National Security 
Council just did not have the staff or the width to do was the 
strategy to deal with pandemic influenza. It meant dealing with 
State and local public health officials and first responders. 
It meant dealing with doctors and CDC, a variety of agencies 
that the National Security Council did not ordinarily deal 
with, in addition to the traditional, the National Guard and 
the active duty military, making sure people had the response 
capability, and that it was a fully integrated plan. By the 
way, it also meant dealing with the World Health Organization 
and health organizations and governments around the world.
    I use that as an example, but I think it is important to 
understand it is just one of those sorts of issues that the 
Homeland Security Council brought to bear its experience in 
planning for a bioterrorism event and other sorts of events, 
but was able to pull together a strategy that worked seamlessly 
with the National Security Council and the interagency.
    Senator Pryor. Great. Ms. Wormuth, let me ask you a 
question. I think you mentioned in your statement that the 
current structure has impaired preparedness efforts. Could you 
elaborate on that and tell us how you think it has impaired 
preparedness?
    Ms. Wormuth. Well, I think I was citing as an example the 
challenges in trying to oversee the implementation of policy 
and I specifically called out the implementation of Homeland 
Security Presidential Directive 8 (HSPD-8) on national 
preparedness. I think it speaks to the challenges of the 
smaller staff, the challenges of the perception of the relative 
strength or weakness of the organization. But HSPD-8 was put 
out quite early in the history of the Administration and called 
for development of a vision on national preparedness and the 
development of an overall system to assess preparedness in the 
United States and that process of putting all of those pieces 
in place has been very slow. I would also say, in the same 
vein, I think it has taken quite a bit of time for the 
interagency to try and develop the integrated planning system 
to try and help us think through how we will address the 
various scenarios.
    This is a case where, again, it speaks to the need to 
elevate within the White House the treatment of these issues 
because I think we have made progress, but that progress has 
been slower than most Americans would like to see, and part of 
it is because of the various challenges that the HSC has faced 
that we have talked about this morning.
    Senator Pryor. Let me go ahead and alert the Chairman's 
staff that this is going to be my last question, so if you want 
to ask the Chairman and Ranking Member if they want to return. 
Otherwise, I am sure we will leave the record open for a few 
days to ask questions in writing.
    Let me change gears a little bit. We all know that 
President Obama and his national security team are looking at 
whether the Homeland Security Council and the National Security 
Council should be merged or restructured in some ways. Have any 
of you been involved in that White House review that they are 
doing?
    Mr. Ridge. No.
    Mr. Locher. No.
    [All shaking heads from side to side.]
    Senator Pryor. Does anyone know what the time frame is for 
them to make a decision? Have they laid out any sort of time 
frame?
    Mr. Locher. None.
    Senator Pryor. This question may be for you, Mr. Locher, 
you may know more about this than anyone. As it stands today 
with the Obama Administration, and I know we are very early in 
this Administration, 3 or 4 weeks, who is the primary advocate 
in the Obama Administration today for homeland security issues 
in the White House? Is it the Department of Homeland Security 
or is it the National Security Advisor? How is that working 
today? I know it will change because they are still filling out 
their slots there.
    Mr. Locher. I really do not have a lot of insight, but I 
think that General Jones sees himself, given the approach that 
they are currently taking, as having this as part of his 
portfolio. He has John Brennan, who is more designated to have 
this responsibility, but those details have not been made 
public. I really cannot say exactly who has that 
responsibility.
    Senator Pryor. Right.
    Mr. Ridge. We are coming to the conclusion of this hearing. 
It has been very helpful, and hopefully it has been a 
provocative enough discussion that the staff and the Members 
will get some insight that they did not have before.
    But I would just like again to put my oar in the water one 
more time in opposition to the merger. Homeland security is a 
national mission. It has a national mission that has 
international dimensions, no question about it. But in order 
for it to achieve its national mission with these international 
dimensions, you need an advocate and a staff and a capacity in 
the White House, personified by an Assistant to the President 
for Homeland Security, in order to accomplish its national 
mission to integrate the entire country, and that means 
horizontally, across Federal agencies, bureaus, and the like, 
and vertically, State, local, private sector, academic 
institutions, and nonprofit organizations.
    That horizontal and vertical integration, I am just very 
concerned, gets absolutely subsumed if it is put in an agency 
or a unit, National Security Council, that has primarily an 
international mission with some national implications, a 
fundamental difference in the mission, outreach, and 
constituency.
    Senator Pryor. Well, I thank you all for being here and 
thank you for your comments and your insights and your views on 
whether this merger should take place or not.
    Senator Lieberman and Senator Collins will not be able to 
return. They have asked me to let the Committee and the panel 
know that we are going to keep the record open for 15 days. Be 
prepared to receive some written questions. There are a few 
senators, I know, who were trying to get here that could not 
attend today.
    Again, we want to thank you for your time and your focus on 
this issue and thank you for your public service. We appreciate 
all that you do.
    With that, we will adjourn the hearing, and thank you 
again.
    [Whereupon, at 11:33 a.m., the Committee was adjourned.]





















                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE TIFF FORMAT]

                                 <all>

</pre></body></html>
